Audit of Effort Reporting System

University of Wisconsin-Madison
      Madison, Wisconsin

    National Science Foundation
    Office of Inspector General


         November 2, 2009
         NSF OIG 10-1-002




            Audit Performed by:
     Williams, Adley & Company, LLP
      1250 H Street N.W., Suite 1150
          Washington, DC 20005
This page intentionally left blank
                                     Executive Summary
       This audit report provides the re sults of our review of the e ffort certification system used
by University of W isconsin-Madison (W isconsin) to validate salaries and wages charged to
National Science Foundation (NSF) grants. In fiscal year (F Y) 2007, W isconsin’s Federally-
sponsored p rojects totaled approxim ately $71 9 m illion, of which $125 m illion or 17% were
funded by NSF. Of t he $125 m illion, m ore than $31 m illion were for labor co sts directly
charged to NSF awards. This audit is one in        a series of Office of Inspector Ge neral (OIG)
reviews of the labor effort     distribution system s being conducted at NSF’s top-funded
universities. The review’s main purpose is to determine whether the internal controls over salary
and wage costs claimed on NSF grants were properly managed, accounted for, and monitored.

        Our review disclosed that W isconsin generally had a well established and sound grants
management program. However, the audit disclo sed internal control weaknesses that Wisconsin
needs to co rrect to ensu re p roper implem entation and oversight of its e ffort reporting system .
We identified system weaknesses in: ove rsight of the effort reporting process; calculations for
NSF summer salary limitations; a nd the effort reporting training program. Specifically, reviews
in 2006, prior to im plementation of a new e ffort reporting system , identified a number of non-
compliance issues with f ederal an d NSF requ irements th at shou ld h ave been id entified and
corrected through the oversight process. W hile the new system i mplemented by W isconsin
corrected m any of the weaknesses identified in the 2006 reviews, our audit of FY 2007 effort
reporting id entified the additi onal weaknesses listed above. Fu      rther, W isconsin had not
conducted an independent internal evaluation of th e prior ef fort reporting system si nce at least
the early 1990’s that also could have identified and corrected these deficiencies.

        In addition, W isconsin did not fully com ply with NSF’s s alary lim itations f or f aculty
research. T his resulted in two of four princi pal investigators (PIs) ex ceeding the limitation and
overcharging NSF $2,941 in salary and benefits. Although the overcharges are not significant
unto themselves, based on our testing, over $753,000 of the $31 million in FY 2007 faculty labor
charges was at risk for overcharg es. Finally, the audit disclose d that Wisconsin, prior to 2007,
had not established an effective training program for university personnel involved in the effor t
reporting process. In fact, the first university wide required effort repor t tra ining was f or the
implementation of the new effort reporting system in 2007.

        As a result, W isconsin provides less assuranc e to NSF and Federal sponsoring agencies
that effort reports are reliable in reasonably supporting the $31 million in NSF salar y and wages
charged to s ponsored projects, as w ell as the salary portion of the $594 m illion of other Federal
agency funding.

        These weaknesses occurred because Wisconsin, prior to FY 2006, did not place sufficient
emphasis on effort reporting. Specifically, Wisc onsin had not established sufficient detailed
written guidance for all effort  reporting pro cesses to e nsure f ull c ompliance with Fede ral
requirements for oversight and compliance with fede ral and NSF policies. Further, prior to the
implementation of the new system and significan t revam ping of their policies and procedures,


                                                  i
Wisconsin had not developed adequate policies        to provide adequate training to university
personnel on requirements and responsibilities for effort reporting.

        Our recom mendations were prim arily direct ed at develop ing and implem enting clear
written policies for periodic overs ight of the effort reporting process, c ompliance with NSF’s
salary limitations, and a traini ng program. Finally, we recom mended that W isconsin resolve the
$2,941 in questioned salary, wages and fringe benefits.

        A draft audit report reque sting comments on the findings and recomm endations was
issued to th e University of Wisconsin Madison. The University gen erally agreed with the facts
and findings and concurred with the recomm endations. The University, in recognition of the
weaknesses identified in the report, will address future, regular evaluations of its effort reporting
processes and practices, enhan ce its policies and procedures, repay the questioned costs and
provide additional opportunities for refresher training.

       Wisconsin’s responses, once fully im       plemented, should address our audit
recommendations. NSF should work with the c      ognizant audit agency and/or W isconsin to
ensure the University develops an accep table corrective action plan to reso lve each audit
recommendation. We have summarized Wisconsin’s responses and provided our comments after
each recom mendation in the report. The University ’s com plete response to the draft report is
included as Appendix B.




                                                 ii
TABLE OF CONTENTS


EXECUTIVE SUMMARY                                                i

INTRODUCTION

Background                                                       1
  Objectives, Scope, and Methodology                             2

FINDING AND RECOMMENDATIONS

  Improvements Needed in the Payroll Distribution and
     Effort Reporting System         5

APPENDIX

  Appendix A:      Salary Overage Breakdown                      14
  Appendix B:      Wisconsin Response to the Audit Report        15


ACRONYMS

    NSF            National Science Foundation
    PI             Principal Investigator
    OIG            Office of Inspector General
    OMB            U.S. Office of Management and Budget
    PAR            Personal Activity Report
    RSP            Office of Research and Sponsored Programs
    ECRT           Effort Certification & Reporting Technology
                                     INTRODUCTION

BACKGROUND

        Approximately one third of the Nationa l Science Foundation (NSF) award funds
are provided for salaries and wages, am       ounting to about $1.3 billion annually at
universities. Also, in recent y ears, there have been severa l civil settlem ents involving
overcharges of labor costs to Fede ral grants amounting to m illions of dollars at s everal
major universities, inclu ding som e funded by NSF. Because of thes e legal actions and
material amounts of labor costs paid from NSF awards, the Office of I nspector General
(OIG) is undertaking a series of reviews of the labor effort distribution system s at NSF’s
top-funded universities in order to assess the adequacy of the internal controls to ensure
salary and wage costs claim ed on NSF gran ts are properly m anaged, accounted for, and
monitored. This audit, involvi ng the University of W isconsin-Madison (W isconsin) is
one of the planned reviews of such labor effort distribution systems.

        Wisconsin’s funda mental m issions are te aching, research a nd public service.
Teaching and educatin g students occur at al l levels, fro m undergraduate to the m ost
advanced graduate level. W isconsin is built upon fundam ental values regarding its
relationship with the state and dedication to its educational m ission. Founded as a land-
grant institu tion in 184 8, it is the f lagship of the University of W isconsin System , an
educational system of 26 two-and four-year Colleges and Universities located throughout
the State of Wisconsin. It is the largest institution in the State and one of the largest single
campuses in the nation with a total enrollm ent of over 41,000 student s and a faculty of
over 2,200.

        Wisconsin is a m ajor te aching and resea rch university. It is one of the top five
universities in the country in terms of research expenditures, and in 2007 reached over $1
billion in new awards. In 2006, it was ranked 8 th in the world in term s of the volume of
scientific pu blications b y the Academic Ranking of World Universities . The fiscal year
2006/2007 budget was $2.19 billion ex cluding the university’s hos pitals and clinics. The
significant budget com ponents are federal pr ograms and projects $655.3M; gifts, grants
and segregated funds of $409.8M; and student tuition revenue of $327.4.

        The University’s m anagement and oversight of Federal grant pr ograms is shared
between its Office of Research and Sponsored Programs (RSP) and the Dean’s offices of
the various schools and colleges and the Principal Investigators. Prim arily, RSP is tasked
with prov iding institu tional ove rsight of both pre-award and post- award activities and
ensuring Wisconsin’s compliance with Federa l grant regulations and sponsoring agency
requirements. As such, RSP r ecommends Wisconsin policies and procedures for Federal
grants m anagement and is charged with implementing appropriate training program s.
RSP is also responsib le for com piling and dis tributing the effort reports to all academ ic
departments to provide for the certification of actual work effort devoted to Federally-
sponsored projects. The Dean’s offices of      the various schools and colleges and the
Principal Investigators have shared res        ponsibility with RSP and departm          ental




                                               1
administrators for financial adm inistration and monitoring of the active Federal award
projects.

         Within each Academ ic Departm ent, senior grant adm inistrative o fficials are
tasked with the m anagement and oversight of sponsored projects to ensure com pliance
with Federa l and University po licies and proc edures. Such officials ty pically assis t and
advise faculty m embers with the m anagement of Federal grants a nd are responsible for
ensuring that awards and their bud gets are created accu rately in the financial system ;
award expenditures are monitored on a m onthly basis; and charges to Federal awards are
appropriate. They also ensure Principal Inve stigators (PIs) confirm the reasonableness of
employee salary charges on their effort reports. However, PIs have primary responsibility
for all aspects of Federally-sponsored pr ojects including approval of all charges and
ensuring th at the res earch is con ducted in accordance with the award term          s and
conditions.


OBJECTIVES, SCOPE AND METHODOLOGY

        Audit Objectives. Our audit objectives were: (a) to evaluate whether Wisconsin’s
internal controls are adequate to properly manage, account for, monitor, and report salary
and wage costs on NSF grants in accordan ce with OMB and NSF grant requirem ents and
(b) to dete rmine if salaries and wa ges char ged to NSF awards are allowable, allo cable
and reasonable in accordance with Federal cost princip les and NSF award term s and
conditions.

        Scope and Methodology . The audit focused on W isconsin’s effort reporting
system, and accord ingly reviewed in ternal controls for ensuring that labo r costs charged
to NSF (i) were actually incurred, (ii) bene fited NSF awards, (iii ) were accurately and
timely recorded and charged to NSF, and (i v) were for allowabl e and allocable-type
activities as required by Federal and NSF require ments. In a ddition, we evaluated if the
level of PI effort pledged in grant       proposal and award docum ents was actually
contributed by the faculty member to accomplish award objectives.
        To address each of the contro l objectives, the NSF-OIG engaged a statistician to
provide expert advice in selecting a statisti cal sam ple of employee salary reco rds for
testing. The use of statis tical tools and m ethodology will enable projecting our audit
results to th e entire pop ulation of universities to be includ ed in the planned reviews of
payroll distribution systems nationwide. However, due to the small statistical sample size
of 30 em ployees tested, we are not able to m ake any p rojections to the tota l Wisconsin
population of labor costs charge d to NSF grants. Specific ally, the FY 2007 salary and
wage costs for the 30 sample employees tested amounted to $753,074 and were supported
by 64 Personal Activity Reports (PAR) and E ffort Certification & Reporting Technology
(ECRT) effort reports.

       We interviewed key W isconsin officials, and reviewed the organization structure,
and written polic ies and procedu res to ass ess the “attitude” or “ton e at the top” tow ard
grants management and compliance in general as it affects effort reporting.



                                             2
           We com pared W isconsin’s policies a nd procedures to F ederal and NSF
requirements for allocating labor costs to Fe deral awards a nd inte rviewed personnel to
gain an understanding of the controls in place to ensure salary and wages charged to NSF
awards were reasonab le and allowab le. For ea ch statistically selected s alary record, we
obtained the following docum entation to dete rmine whether labo r cos ts at W isconsin
charged to NSF awards met the control objectives:

          Effort reports docum enting 100 percent of each em ployee’s com pensation
           allocated to sponsored and non-sponsored projects for each reporting period.

          Appointment letters or other documents supporting the approved annual salary
           for employees.

          Salary Payment History Reports (SPHR) detailing the actual salary and wages
           charged to sponsored projects and othe r activities for each em ployee during
           each reporting period.

          Award docum ents to determ ine whether the grant had any term            s and
           conditions that would affect allowable labor charges to the award.

        To ensure that salary and wage costs charged to NSF awa rds were incurred and
benefited N SF awards, we corroborated th       e inform ation on the ef fort reports by
interviewing the 30 sampled e mployees. W e inquired whether (a) the labor charges
documented were actually incurred on project       s and activities, (b ) the approxim ate
percentage of effort actually worked on     each sponsored project and/or activ ity was
reasonably consistent with N SF labor charges, and (c) the type of work perform ed on
NSF projects was generally consistent with the scope of the awards. We also interviewed
administrative officials in the Academ ic Departm ents of the sam pled em ployees to
determine procedures for processing and m onitoring employee salary charges to Fed eral
grants. Ad ditionally, we interv iewed selecte d PIs to determ ine the num ber of projec ts
and personnel they were responsible for and their processes for verifying effort reporting.

        To confirm that faculty effort pledged in grant proposals was ac tually contributed
to accom plish gran t ob jectives, we reviewed p rocesses for reporting and tracking PI
effort. W e reviewed award docum ents for all Fede ral g rants tha t a f aculty m ember
worked on during FY 2007 to determine the effort pledged on each project and com pared
this proposed effort to the approxim ate percentage of actual effort worked on the project.
In addition, we determined whether and       how W isconsin tracked and docum ented PI
effort on sponsored projects when no faculty salary support was reque sted or reimbursed
by the Federal Government.

        To determine whether labor costs were accu rately recorded and charged to NSF,
we com pared the am ounts in appointm ent letters or other docum entation supporting
salaries and wages paid to the am ounts recorded in the SPHR for each individual in our
selected sa mple. W e reca lculated salary and wage costs charged to NSF projects by
using the salary shown on supporting docum entation and apportioning it by the period of


                                            3
time represented on the effort reports. W e also reviewed labor transa ctions to determine
whether W isconsin followed Federal, NSF, and University requirem ents on charging
labor costs to NSF projects.

        The audit determ ined whether W isconsin officials approved and signed effort
reports in a timely manner by comparing the date the effort reporting period ended to the
date the reports were approved and signe       d. Ti meliness was based on W isconsin’s
internal policy requiring that effort reports are com pleted and signed in accordan ce with
the policy.

         Finally, we reviewed prior audit re       ports on Wisconsin’s Federal grants
management program perform ed by OMB Ci rcular A-133 audito rs and W isconsin’s
internal au ditors to determ ine whet her there were any audit findings and
recommendations on labor effort reporting. Sp ecifically, we interviewed the director of
internal audit and a staff and review ed their reports, as needed, to gain an understanding
of the scope and procedures       used in any audits of W isconsin’s payroll distribution
reporting system and/or management of labor costs charged to Federa l projects. Review
of the A-133 audit working papers is perform ed to ascertain the actual audit scope and
procedures used by the audito rs in order to (i) preclud e any duplicative audit work and
(ii) to determ ine the s pecific work perform ed on the labor effort reporting system       .
Accordingly, we m et with W isconsin’s A-13 3 auditor s, specif ically the dir ector and
supervisor to discuss their ov erall audit scope and procedures used for reviewing salaries
and wages charged to Federal awards and the labor effort reporting system.

       On-site audit work at th e W isconsin campus wa s perform ed during two 2-week
periods in March and July 2008. The remainder of the audit work was completed through
phone interviews, em ails, and docum entation requests through June 2009. W e were
engaged to perform the above audit object ives by the NSF-OIG a nd the audit was
conducted in accordance with the Comptroller General’s Government Auditing Standards
and accordingly included such tests of accoun ting records and other auditing procedu res,
as we considered necessary, to fully address the audit objectives.




                                             4
FINDING AND RECOMMENDATIONS

Improvements Needed in the Payroll Distribution and Effort Reporting
System

OMB Requirements and University Policy for Labor Effort Reporting

          Circular A-21, Cost Principles for Educational Institutions, recognizes that each
institution “should em ploy sound managem ent practices” in applying the Federal cost
principles for charging co sts on sponsored projects.          Specifically, “the recipient
institution is responsible for ensuring that costs charged to a sponsored agreem ent ar e
allowable, allocable, and reas onable under these cost princi ples” and “must provide for
adequate docum entation to support costs charged to sponsored agreem          ents.” 1 Thus,
Wisconsin is required to have written proce dures to ensure costs charged to sponsored
projects are in f ull compliance with Federal cost principles and th e terms and conditions
of the sponsored agreement. In addition to the day to day oversigh t, the Circular also
requires Universities to provide for periodic independent inte rnal evalu ations to ens ure
the effort reporting system is effective and compliant with Federal standards.

       Consistent with the Circular A-21 re quirement for “sound business managem ent
practices,” OMB Circular A-110, Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher        Education, Hospitals, and Other Non-Profit
               2
Organization, requires entitie s r eceiving Fed eral awards to es tablish and m aintain
internal con trols th at are designed to reasonably ensure compliance with Federal laws,
regulations, and program compliance.

         OMB Circular A-21 requires certif ication of labor effort/ac tivity contributed by
employees on Federal awards. Specifically         , paragraph J10.b. (2) states a payroll
distribution system is required tha t will ‘ ….reasonably reflect the ac tivity for which the
employee is compensated by the institution; and encom pass both sponsored and all o ther
activities o n an integ rated bas is’. Such a system m ust provide for after-the -fact
confirmation of e mployee activity by a res ponsible person with ‘suitable m eans of
verification that the work was perform ed.’ Wisconsin’s Effort Reporting Manual echoes
this requirement.

       Finally, the National S cience Foundation’s Grants Policy Manual , lim its the
amount that can be funded for academ ic pers onnel to no more than two-ninths of the
individuals academ ic base salary. This is commonly referred to as N SF’s Two-Ninths
Rule. This limit includes salaries received from all NSF-funded grants.

1
         Paragraphs C.4.d. (1) and A.2.e., respectively, of OMB Circular A-21, Cost Principles for
Educational Institutions.
2
         Section .2 1 of O MB Cir cular A-110, r equires t hat a grantee’s financial management syste m
provide for “ Effective control over and accountability for all funds, prope rty, a nd assets. . . written
procedures for determining the reasonableness, allocability and allowability of costs in accordance with the
provisions of the applicable cost principles and terms and conditions of the award.”


                                                     5
Wisconsin’s Effort Reporting System

        Wisconsin used two time and effort reporting system s in fi scal year 2007. The
Personal A ctivity Report (PAR) system , la unched in 1983, was in use for faculty,
students, and m ost staff through Decem ber 2006. The PAR system produced bi-annual
effort reports for all faculty and academic staff and quart erly effort reports for cl assified
staff that RSP distributed to the departm ents and colleges for certification. The PAR
system was replaced b y the web-based Effort Certification & Repo rting Techn ology
(ECRT) system for the six m onth period e nded June 30, 2007. The ECRT syste m also
produces bi-annual effort reports for all facu lty and academic staff and quarterly effort
reports for cl assified st aff. With t he i mplementation of the new system , Wisconsin also
implemented significantly revam ped policies and procedures and m andatory training.
Wisconsin has a decen tralized operational stru cture in which each scho ol or colleg e is
partially responsible for the m anagement of its Federal grants including certification of
effort reports. However, the Office of Res earch and Sponsored Programs (RSP) has the
overall re sponsibility f or ef fort certification and reporting pr ocess at the University of
Wisconsin.

        RSP shares implementation and oversight with the 166 departments and offices of
the University. RSP provides leadership in po licy es tablishment and ef fective contro l
structure. They are also res ponsible for ensuring that the various departments and office
staff are adequately prepared through training, policy, pr ocedures, and instructions
dissemination, and individual assistance.

        However, the audit disclosed that during part of the period, W isconsin did not:
have an effective oversight program to identif y and co rrect con trol w eaknesses in the
effort repor ting sy stem; com ply with N SF summer salary lim itations; and provide
adequate training for university personnel involved in the effort reporting process.

Wisconsin’s Oversight and Independent Evaluation of the Effort Reporting System

      Prior to the im plementation of the new system, W isconsin had not established
effective co ntrols f or e ither day to day oversight or pe     riodic independent reviews.
Wisconsin’s decentralized effort rep orting structure increases the need for strong day to
day oversight. However, based on a 2006            review of effort reporting system by a
consultant as well as addition al weaknesses found in our audit, the contro l stru cture
requires additional strengthening. For example,

        In 2006, as part of the im plementation process for the new web-based ECRT
system, Wisconsin requested that a consul ting group conduct a “snapshot review” of the
current state of its effort reportin g syst em. The independent review perform ed in
accordance with the requirem ents of OMB Ci rcular A-21 , revealed com pliance and
internal control weaknesses which included:

              All effort reports not adding up to 100 percent and encom           passing all
               professional effort.



                                              6
              Improvements in training needed.
              No formal procedures for tracking and monitoring effort commitments.
              PARs not timely received by Office of Research and Sponsored Programs.
              Procedures for tracking cost sh aring make it dif ficult to de termine if key
               personnel are meeting their cost commitments.
              Delays in processing cost transfers.

Wisconsin’s Internal Audit also conducted a review in 2006 that revealed sim            ilar
problems to those cited in the consulting gr oup’s review, which was completed prior to
Internal Audit’s evaluation. Th is review was the first cond ucted by Internal Audit since
the PAR system was i mplemented. According to Wisconsin officials, th e ECRT system
was implemented to cor rect weaknesses identified in the co nsulting group’s and Interna l
Audit’s reviews. Our testi ng conf irmed that most wea knesses were corrected w ith
implementation of the E CRT system. Howeve r, we did identify additional weaknesses
addressed in this report that require corr  ection and indicate the need for additional
internal control policies and procedures.

Further, Wisconsin did not perform periodic comprehensive independent evaluations of
the effort reporting system . In fact, no docum ented comp rehensive evaluations were
performed from 1983 through 2005. W isconsin stated, “During the period of the 1980’s
and early 1990’s, representatives from our cognizant audit agency, the Departm ent of
Health and Hu man Services (DHHS), were loca ted on-site at the University. Their role
was to perform audits as requested by fede ral agencies. Because of the DHHS presen ce
on campus, the annual A-133 audit, and the priori ties and risks identifi ed at the federal,
state, and u niversity le vels, th e ris k assessm ents for previous periods determ ined that
effort reporting was a lower risk area for audit.” As noted; however, we were not able to
obtain documented evidence of comprehensiv e reviews. Ev en if comprehensive reviews
had been conducted during DHHS’s on-site presence, between 10 – 15 years had passed
since DHHS had the on-site presence.

Thus, the P AR effort reporting system m ay not have been thoroughly reviewed for
compliance to Federal guidance since its launc h in 1983. These review s are critical for
ensuring ins titutions’ sy stems are com pliant with Federal r equirements and reasonably
reflect the activ ity f or which the em ployee is com pensated by the institution. If
Wisconsin had conducted periodic com prehensive independent internal evaluations of its
effort repor ting sys tem, the com pliance and in ternal con trol weaknes ses in th is and
previous reports would have likely been identified and timely corrected.

Faculty Summer Salary - NSF 2/9ths Rule.

        Wisconsin did not fully comply with NSF’s salary limitations for faculty research
leading to overcharging NSF grants. Specifically , the audit disclosed that two of the four
PIs in our sam ple i mproperly exceeded NSF’s summer salary lim itations during the
summers of fiscal years 2006 and 2007. The overcharges to NSF a mounted to $2,941




                                             7
including fringe and overhead 3 . Although the Wisconsin’s Effort Reporting Guidelin es
reminds investigators of the NSF’s two-ninths rule limiting faculty summer salaries to no
more than two-ninths o f academ ic salary, n either the PIs n or RSP factored raises into
their calculations to en sure adh erence to the rule. W isconsin de termines the r ate of
summer pay by dividing the individual'        s base salary at the tim e of the summ er
appointment (usually in May) by 9 (the num ber of m onths that the base salary covers)
and paid up to the 2/9 th limit of NSF. When the faculty received salary increases in April,
their salary was increas ed just for 2 m onths. It was not retroa ctive f or the f ull year.
Therefore, when calculating th e 2/9 th lim it W isconsin needed to prorate the individual
base salary appropriately before calculating the summer pay rate. W hile the overcharges
are not individually significant, based upon our testing, over $753 thousand of the $31
million in faculty labor charges are at risk for incorrect charging to NSF in FY 2007 4 .


Effort Report Training

        Prior to the im plementation of the new ECRT system , t he University did not
require effort reporting training on federal aw ards f or Principal Inv estigators, Deans,
Department heads, or other persons involved        in the effort reporting process. In fact,
Principal In vestigators indicated th ey had not receiv ed training under the old P AR
system. Further, neither RSP nor the indi       vidual colleg e grant ad ministrators were
required to have effort repor ting training even though they are responsible for providing
guidance and advice on effort reporting. Interviews with RSP and a PI indicated they
believed th at the inf ormation and in structions printed on the reve rse side of the P AR
provided sufficient information that mandatory training was not necessary. However, the
instructions only prov ide an ove rview of e ffort repor ting sole ly as it relate s to
certification of the report. Th e broader perspective of effort reporting and some specifics
such as prospective changes, salary transf      ers, sign ificant chang es, and the s alary
limitations are not addressed on the form and require additional training.

       The University did not have a training policy until the implementation of the new
ECRT effor t reporting system at which ti me Wisconsin mandated training for everyone
involved in the effort reporting process.

Factors Contributing to Effort Reporting Weaknesses

        These weaknesses occurred because W isconsin, prior to F Y 2006, did not place
sufficient emphasis on the effort reporting proce ss. Specifically, policies and procedures
did not address and/or contain sufficient de      tail to ensu re com pliance with Federal
requirements through an effective oversight program or establish a comprehensive and
continuous training program for key personnel. Such policies, procedures and controls
serve to ins titutionalize processes and provide continued em phasis for an overall control
environment.


3
    See Appendix A for Breakdown of overcharge to NSF as a result of NSF 2/9th Rule
4
    Based upon the percentage of overcharge to the PIs’ salary applied against the total faculty labor charges.


                                                        8
    Policy and Procedures Weaknesses
        Day to day oversight. Prior to ECRT and f inalization of new policies a nd
           procedures in early 2008, W isconsin did not have sufficient policies and
           procedures in place to establish a program to provide adequ ate oversight
           of the effort reporting process.        As evidenced by the results of the
           consultant’s and Internal Audit’s revi ews, W isconsin did not ensure that
           established policies and procedures were adhered to nor that the individual
           departments and offices had structures in place to ensure co mpliance with
           timelines, comm itments, and cost sh aring, for exam ple. Considering
           Wisconsin’s decentralized organizati onal structure, 166 departm ents and
           offices with shared r esponsibility f or m anagement of their own portfolio
           of Federal grants, the need for strong and consistent oversight is necessary
           to identify and correct deficiencies in a timely manner in order to maintain
           the over all integr ity of the ef fort reporting system . In Novem ber 2007,
           Wisconsin implem ented significantly revamped policies and procedures
           which included a com pliance effo rt reporting policy supported by upper
           management that included consequences for non-compliance.

           Independent Internal Evaluations.        In addition, W isconsin did not
            establish po licies to m eet OMB r equirements f or indep endent inte rnal
            evaluations. Specifically , University officials believed they m et the A-21
            requirement with their annual OMB Circular A-133 audit and the past
            presence of DHHS audit staff. 5 However, the A-133 audit was not, nor
            intended to be, a com prehensive review of the effort reporting system .
            While the A -133 audit procedures for e ffort reporting at W isconsin cover
            some aspects of effort reporting, the aud it is not designed to be detailed or
            comprehensive. Further, regard less of whether DHHS h ad conducted
            comprehensive reviews of the effort reporting system, they have not been
            on-site since the early 1990’s.

            Thus, W isconsin had not established any policies or procedures for a
            periodic and systemic review of a system that has been operating for over
            23 years. Such com prehensive ev aluations w ould have likely disclosed
            internal con trol d eficiencies and recommended im provements such as
            those identified by the consulting fi rm prior to im plementation of the
            ECRT system.




    5
     Under the Single Audit Act of 1984 (Public Law 98-502) as amended in 1996 (Public Law 104-
    156), non-Federal entities that expend $500,000 or more a year in Federal awards are required to
    have an organization-wide audit that includes the non-Federal entity’s financial statements and
    compliance with Federal award requirements. The OMB Circular A-133 established uniform
    requirements among Federal agencies for audits of States, Local Governments, and Non-Profit
    Organizations.


                                               9
               Wisconsin stated they were currently workin g with In ternal Audit to
               determine the appropriate schedule for future regular, continuing
               evaluations of effort reporting proce sses and practices at W isconsin based
               on a comprehensive risk assessm            ent of financial com      pliance
               responsibilities

              NSF’s Two- ninths Rule. W isconsin did not have a process that fully
               implemented NSF’s two-ninths rule on faculty summer pay. Specifically,
               there were no polices and procedures to cover supplemental compensation
               when computing PIs’ summer salaries for conformance with NSF policy.

              Employee Training For Key Officials Was Not Mandato ry. PIs and
               department adm inistrative officials are im portant officials for effort
               reporting. As part o f the im plementation of ECRT Wisconsin has
               developed a com prehensive on-site and web-based labor effort and grants
               management training program , encom passing a wide range of Federal
               grants management subjects, includi ng labor effort reporting policies and
               procedures. However, Wisconsin has not instituted a policy going forward
               for effort reporting training that    would provide        procedures and
               requirements for periodic refresher courses for key officials.

              Suitable Means of Verification Requires Definition       . Federal grant
               requirements provide that salary an d wage charges to sponsored projects
               be supported by labor effort reports signed and approved by the em ployee
               or an official who is in a position to know        whether the work w as
               performed. W isconsin has a policy re quiring official s signing effort
               reports to have a suitable m eans of verification that rep orted effort is
               accurate. H owever, the policy d id not define what constituted a “suitab le
               means of ve rification”; require docum entation by the signin g official that
               they obtained such verification, or hold certifying officials accountable for
               following certification policies and procedures.

Effort Reporting Reliability and Excess Labor Charges

        These in ternal con trol weaknesses pr ovide less assu rance over the reasonable
support for the $31 million of FY 2007 labor char ges to NSF grants, as w ell as the salary
portion of W isconsin’s other $594 m illion of Fe deral awards. In addition, Wisconsin’s
lack of policies and procedures on NSF’s           two-ninths rule allowed W isconsin to
overcharge NSF $2,941 in salary and associated fringe benef its. W hile the overcharges
were not individually significan t, we estim ate that over $753 thousand in FY 2007 NSF
labor charges were at risk for overcharging due to this weakness.




                                            10
Recommendations

We recommend that the NSF Di rector of the Division of Grants and Agreem ents and the
Director of the Division of Institu tion and Award Support, coordinate with the cognizant
audit agency, as needed, to implement the following recommendations:

   1. Develop and implement clear written policies and procedures:

           a. For a pe riodic ind ependent in ternal eva luation of the ef fort repor ting
              system to ensure its ef fectiveness and full compliance with Federal, NSF,
              and University standards. Such a requirement should identify the specific
              organization responsible for performing the evaluation and how often such
              an evaluation should be conducted.

           University of Wisconsin - Madison Response

           Wisconsin is currently working with UW Internal Audit to determ ine the
           appropriate schedule for future, regular  evaluations of effort reporting
           processes and practices based upon a comprehensive risk assessment.

           Auditors’ Comments

           Once im plemented, W isconsin’s actions should address our audit
           recommendation.

           b. That enhances the policy on supplem ental compensation to include controls
              to ensure that the pay receiv ed b y faculty for com pensation from NSF
              corresponds to 2/9th of their base salary.

           University of Wisconsin - Madison Response

           The Univer sity will re view its po licies and practices on the application of
           NSF’s 2/9 th rule to en sure we are approp riately com pensating faculty in
           keeping with the NSF interpretation of the rule.

           Auditors’ Comments

           Once im plemented, W isconsin’s actions should address our audit
           recommendation.

           c. That requires key personnel to atte nd periodic training on the effort report
              process and grant m anagement. Such training should include a thorough
              discussion of effort certification resp onsibilities and requ irements and the
              various types of e mployee activities that do not directly benefit, and should
              therefore not be charged to federal awards.




                                            11
       University of Wisconsin - Madison Response

       The University currently provides mandatory effort training for all faculty and
       staff who ce rtify effort, but the audito rs were concerned about provisions for
       refresher co urses for certifiers. W e ag ree to continue ou r in itial tra ining
       programs and to m ake a refresher course availab le for all certifie rs. In
       addition, we agree to provide updates to faculty and staff when changes are
       made in UW policy or in the underlying Federal regulations regarding effort
       reporting.

       Auditors’ Comments

       Once im plemented, W isconsin’s actions should address our audit
       recommendation.

       d. To define what constitutes a suitab le m eans of verification and what
          documentation is required to be maintained by verifying officials.

       University of Wisconsin - Madison Response

       The Univer sity will work to d   efine suitable m eans of verif ication and
       documentation thereof consistent with relevant Federal guidelines.

       Auditors’ Comments

       Once im plemented, W isconsin’s actions should address our audit
       recommendation.

2. Resolve the questioned cost of $2,941 for ove rcharges in violation of NSF’s two-
   ninth’s rule.

       University of Wisconsin - Madison Response

       We agree to refund th e questioned cost of $2,941. We will wait for
       instructions from the Division of Gr ants and Agreem ents on processing
       payment since the two projects are closed. However, we believe there is room
       for further d iscussion on the in terpretation of the NSF Two- Ninths Rule as it
       applied in FY 07.

       Auditors’ Comments

       Once im plemented, W isconsin’s actions should address our audit
       recommendation. W e also concur with W isconsin, that there are apparent
       ambiguities and conflicting statements in the NSF Two-Ninths Rule guidance.
       However, NSF has sustained all our questioned costs related to the application
       of the Two-Ninths Rule in prior effort report audits. Further, W isconsin was



                                        12
the f irst un iversity to p rovide us with a dif ferent inte rpretation of this rule.
Thus, we stand by our position that the NSF policy restricts the transfer of
funds into a salary budget category that would cause a PI’s actual salary to
exceed two-ninths of th e academic year salary . However, in ligh t of the
varied interpretations and confusion among grantees, we agree that W isconsin
should request NSF to provide clear guidance on the Two-Ninths Rule.




                                   13
                                                        Appendix A – Salary Overage Breakdown


Calculation of Salary Overcharge Resulting from NSF’s 2/9th Rule

Sample    Academic   Institutio   2/9th IBS   Summer      Salary    Fringe   Overhead   Total
Number    Year       nal Base                 Salary      Over                          Salary
                     Salary                   paid        2/9th                         Over
                     (IBS)                                IBS                           IBS
                                                                                        2/9th
1         2006       $88,985      $19,774     $20,314     $540      $189     $254         $983
          2007       $94,457      $20,990     $21,471     $481      $168     $226         $875
2         2007       $115,648     $25,699     $26,294     $595      $208     $280        $1,083
TOTAL                             $66,463     $68,349     $1,616    $565     $760        $2,941




                                              14
                                            Appendix B – Wisconsin Response to the Audit Report




                                           TH E U
                                           THI  U "'~U.S1TT
                                                  N,!XtllSITY

                                        WISCONSIN
                                              M A
                                              M ADISON
                                                  I;"SON



           OFFICE OF RESEARCH AND SPONSORED PROGRAMS



                                                          October 19, 2009




Williams, Adley & Company, LLP
1250 H Street, NW
               NW.,.. Suite 1150
Washing ton, DC 20005

Dear Ms. Duckett:
         Ducken:

Thank you for the opportunity to commenl
                                      comment on the audit report for the NSF OIG effort audit at the
University of Wisconsin - Madison. We are responding to the document dated September 30.            30,
2009, and we appreciate your assistance in refining some earlier
2009.                                                             ear1ier language thai
                                                                                    thaI was enhanced
by clarification.
   clarifICation. Both your staff and Ihe the representatives from NSF OIG have been professional,
facilitative,
facilitative. and collaborative.
                   collabor'alive. I believe their approach 10 Ihis audit encouraged our interactions
with them 10  to be uniformly positive and congenial.
                                             congenial, certainly in keeping with the mission of Ihe
                                                                                                 the
NSF.

Upon reflection,
      reflection, I find the audit has confirmed the strength of University of Wisconsin - Madison
                benerlts of our investment in effort reporting systems, and the coope
programs. the benefits                                                                rative nature
                                                                                cooperative   na\1Jre
of our faculty and administrators.
                    administrators. We will use the recommendations from this audit 10 to further
                                          responsibnities in effort reporting.
improve our educational and oversight responsibilities              reporting .

Below please find our responses to the audrt
                                       audit recommendations.
                                             recommendations.

Recommendations
We recommend that the NSF Director        of the Division of Grants and Agreements and the
                                 Directoroflhe
Director of the Division of Institution and Award Suppot1,
                                                    Support, coordinate with the cognizant audit
agency, as needed, to implement the following recommendations:

    1. Develop and implement clear written policies and procedures:
          a. For a periodic independent intemal
                                           intemel evaluation of
                                                              of the effort reporting system to
                     its effectiveness and full compliance with Federal,
             ensure its                                          Federal, NSF,
                                                                           NSF, and University
                          Such a
             standards. SUCh                                   the specific organization
                                 a requirement should identify the
             responsible for performing the evaluation and how often suchsuch an
                                                                               an evaluation
             should
             should be
                     be conducted.

   UW Response:
      Res ponse:

   Wisconsin
   Wiscon sin iIss currently
                    currently working
                               w orki ng with
                                         w ith UW Internal Audit
                                                              Aud it to
                                                                     to determine
                                                                        det erm i ne the
                                                                                     th e appropri    ate
                                                                                            appropriate
   sch edule for
   schedule  f or future,
                   future , regular
                            regular evaluations
                                    evalua ti on s of effort
                                                      effo rt reporting processes
                                                                         processes and practices
                                                                                              practi ces at
   UW -_ Madison
   UW    Madiso n based
                     ba sed on a comprehensive
                                   compreh en sive ri   skk assessment
                                                      ris   assessment of financia
                                                                              fi nanci all complian
                                                                                           compliance ce
   responsibilities_
   respon sibi lities.

21 North
21  North Pari<:
           POirtt Street
                  Street                                                       Telephone
                                                                               Telephone 608/262-3822
                                                                                            6081262-3822
Suite
Suite 6401
       6401                                                                            Fax
                                                                                       F">t 608/262-5111
Madison,
MlId lSDn, WI
           WI 53715-1218
                 53715-1218                                                    http://www.    rsp. wlsc.edu
                                                                                http://www.rsp.wlsc.edu




                                                15
                                               Appendix B – Wisconsin Response to the Audit Report




         b. That anhanca the policy on
            ThaI enhance               on supplo!tmenllJl  compensation to iIICJvde
                                            supplamental COtnp6flslJlion     inducJe controls 1to
                                                                                                0
            ensure thaI
                    thet /lie pey f8Ct1ived
                         the pay  reuived by flJCUlty
                                                feculty for COtnpen$lJtion from NSF corresponds
                                                            compensation from         00I'I'8Sp0fId$
               219" of their base $818,.,..
            to 2Iff'oflheir
            10                     selery.

UW Respon ...
UWRlltpon se::

Tha  University will review
Th e UnlvlrIIlty     raview its policies
                                policla. and pra
                                              pllletJea.
                                                  ctices on the
                                                             tha .applicat
                                                                   pptl e.ltlon
                                                                            ion of tha
                                                                                   thl NSF
Two-Ninth.
Two-Nlnth. Rula
             Rule to an.ura
                      en.ure wa
                              we ara
                                 are appropriatlly
                                     appropriately eompan'lIting      fll eulty In kHplng
                                                      compensating faculty         keeping with
tha current
thl eUn'lnt NSF Intarpratation
                 Interpretation of tha  Rura. Plana
                                    thl Rule.  Plea.e .see
                                                         .. .additional
                                                              dditlonal comml
                                                                          eommantl    onn thl
                                                                                  nts o   tha
Two·Nlnth.
Two-Ninths Rula
             Rule In
                  in our responsa       Rl commendallon 112
                          response to Raeommandation        #2 balow.
                                                                below.

         c. ThlJl
            That requires key personnel to IIltend
                                           sttend periodic
                                                   periOdic training on Ihe
                                                                        the effort report
             process
             p                   management. Such training
               rocess and grant manaoemenl.                                 include s thorough
                                                          lreining should Include"     thoro~h
                        of effOft
             discussion of         csrtifK;stion responsibilities and requirements end the various
                           effOtt certification
             types of employee
             typfls   employ ee activilies
                                  sctivities that
                                              thaI ao not directly benefit.
                                                   do nol          benefit, and
                                                                             lind therefore should not
                         to federelawards.
             be charged 10
             be             federal awards.

UW Ra.pon.a:
   Response:

 Tha    Unlvarllity
 The Univers     ity has takan
                         taken avary
                                  every oppor1unity
                                        opportunity to makamakl tIlIining
                                                                   train lng for our flleulty
                                                                                       fa culty Ind
                                                                                                 and .staff
                                                                                                        lIff
 ea..
 a  sily  accelliibia
      '1y leees.    ble and timely,
                             timaly, targeting
                                     targating ththal kay  principles of affort
                                                      key prinelplas         effort re porting and
                                                                                    reporting
Ianeouraglng
   ncoursglng our certifiers         understand thalr
                       eartifiars to undarstand      thllr rlltponslbilitla.
                                                           responsibilities for managing fl         dlral
                                                                                                  f.da.,..r
           TllIlnlng programs, effort rlporting
 funds. Training                          reporting toots,
                                                       too/s, and
                                                               snd reference
                                                                     raferanee documents
                                                                                 doeumants are aU     all
rreadily
  ..dlly Iavalilbra
            vallable so that
                          thlt individuals
                                individual. can    anhanea their
                                             e.ln enhance              understanding of affort
                                                               thalr undarstandlng          effort
reporting or look up a specific
                              speeifle question    at their eonvanlanee.
                                       quastion IIthalr      convenience. Th    Thea Univars
                                                                                     Universitylty
 currlntly   provides mandatory .ffort
 eurrantly provldas                   effort training
                                             t,..ln lng for III
                                                             all faculty
                                                                 fleult)' and staff
                                                                                Ilaff who clrtlfy
                                                                                            eartify Iffort,
                                                                                                      affort,
but thltha auditors were eoneemad
                             concerned about provision.
                                                  provlslOnl~ for ra'rllther
                                                                      refresher course
                                                                                 eoursals for certifiers.
                                                                                                 eartlfiers.
We    agree
 Wa agr    .. to continue
                  eonllnue our initial training programs Iand     nd to make
                                                                          mllka a refresher
                                                                                   rafresher course
                                                                                                eouraa
 avallabla for all certifiers.
available             eertifllrs. In addillon,
                                     addition, wa
                                                we IIgr  .. to provlda
                                                     agree                  Updlltas to faculty Iand
                                                                provide updates                      nd staff
                                                                                                          Itaff
whan     ehangas Ire
when changes         are made in In UW polley
                                        poUcy or in In the
                                                       tha underlying
                                                            undarlylng fadarat      ragutatlons
                                                                           federal regulallon.
 regarding effort
reglrding             reporting..
              .ffort raportlng

        d. To define wtlal COIISUtutes 8a sui/able
                     what constitutes               mHnS 01
                                          wMlJbIe meens    of verifica#on
                                                              verification end   wtlel
                                                                            lind whlll
           doaJmerIlalion is required 10 be maintained
           doaJmen/ation                      mSil!11I1nad by
                                                           by verifying officials.
                                                                        oI'ficJa/s.

UW Re.pon.e:
UWRlltpon.. :

Tha   Unlvarsity
The UniVers      of Wiscon
             ity of Wi.eon.ln
                           sin -_ Madison
                                  MadllOn will work to define
                                                       dafina suitabl
                                                              . ultabla mains
                                                                      e ml an s of
vlriflcatlon
verlflCltion and
             . nd documentation
                  doeumentatlon the   reof con.lstent
                                   thareof conllstant with relevant Federal
                                                                     Feder.' guldanCI.
                                                                             guldanee.

               questioned cost of $2,941
2. Resolve the quaslionad         52,941 for
                                         ~ overcharges in
                                                       In violation     NSF's two-ninth's
                                                          viola /ion of NSF's
    rule.

UW Re.ponse:
   Rasponsa:

Given
Givan th
       thae overa  ll pos,itive
             ovalll!! posit:ive tenor
                                tenor of this audit and
                                                      and in order to re    solvl thl.
                                                                          rasolva thl. mattl r, WI
                                                                                        milner, wa
agrle
Igree to
       to refund the
                   tha qUH    tioned cost
                        qUl$lloned    eolt of
                                           of $2,941.
                                               $2,141 . WeWa will wait
                                                                   wa lt for instruction.
                                                                             instructIons from thl
                                                                                                 tha
Division
Division of Grants and Agreements
                             Agreemants on on procl   ••ing payment
                                               pmeeSiing      paymant since
                                                                          slnea the
                                                                                tha two proJlcts
                                                                                         proJaet. arl
                                                                                                   are
closed.
erosad. However,
          Howaver, we  wa believl
                           believa there
                                   thare Is
                                          I. room for
                                                    for furth'r
                                                          furthar discussion
                                                                  diseusslon on thl tha
interprl ta llon of thl
intarpratation       tha NSF Two-Ninth.
                               Two-Nlnth. Ru le la ••
                                                   liltIt appl1ld
                                                           .ppllad in
                                                                   In FY
                                                                      FY 01,
                                                                           07, and
                                                                               Ind following
                                                                                   follow ing Is
                                                                                              is an
                                                                                                 In
Ixplanation
axpllnltlon of of our
                  our viewpoint:
                       viewpoint:




                                                   16
                                           Appendix B – Wisconsin Response to the Audit Report




In October 2008, NSF issued a new Grant Proposal Guide (GPGJ,
                                                            (GPG), NSF 09-01
                                                                          09-01,, v.tIiCh
                                                                                  which
reflected "a                                               policy, In general, the Foundation
          -a major revision of NSF's salary reimbursement policy.
wi" now [emphasis added)limrt
will                 added] timit salary compensation
                                         compensailon for senior project personnel to no more
than two months of their regular salary in one year.
                                               year.   •"

Prior to GPG, NSF 09-01.
PriOr                09-01, there was not a limit on salary compensation for senior personnel
on NSF grants.
         grants, We believe Wisconsin applied the two-ninths rule, as it was generalty
                                                                               generally
understood by the university community and reflected In  in the NSF Grant Policy Manual
effective July 15.
               IS, 2005. That manual,
                               manual. wh ich was eventually superseded by the GPG.
                                       which                                     GPG, was in
              Fiscal Year 2007 when the disputed charges occurred.
effect during Fiscal                                          occurred,

    The Grant Policy Manual, NSF 05-131, effective July 15, 2005, addresses the two-ninths
    rule In
         in 611.1
            611 .1: "" . Proposal bud
                    -...          budget
                                       get s submitted should not request,
                                                                    request. and NSF-approved
    budgets will not include, funding
                               fundirog for an Individual
                                               individual Investigator
                                                          investigator which exceeds two-ninths
                                                                                     two-n inths
    of the academic year salary."
                           salary.' This section,
                                          section, which was the heart of the two-ninths rule,
                                                                                         role,
    clearty
    clearly speaks to proposal budgets, not to allowable compensation.
                                                             compensation,

       603,1, the Grant Policy
    In 603.1,             POliCy Manual states.
                                         states, "NSF
                                                 -NSF has
                                                      haS waived most cost related and
    administrative prior approvals required by OMS Circulars A-21 and A-l10.
                                                                           A-l10, Grantees
    should refer to the general conditions
                                  conditioos referenced in the grant,
                                                               grant. and the Grant Policy
    Manual ExhiM
            Exhibit 111-1 for infonnation
                              information on NSF required prior approvals.'
                                                                 approvals."

    Grant Policy Manuat
                  Manual Exhibit 111-1    -Grantee Notifications to and Requests lot
                                  111-1., "Grantee                                     for Approval",
    lists Change in Person-Months Devoted to Pro;ectProject es
                                                            as a topic that may require prior
    approval. Section 312,5
                       312.5 lays out the conditions that may require
                                                                    requite NSF approval. Those
               onty appty
    conditions only                                investigator or to a
                    apply to the absence of an investipalor            II Situation in whiCh
                                                                          situation In which the
                           m.
    investigator devotes less time than planned to the project.
                                                            project. There are no prior approval
    requirements for transferring funds in order to 10 support additional person-months by the
    investigator,
    Investigator.

     Finally, Section 321 states.
    Finally,                 states, "NSF elects NOT to impose
                                                           Impose the following requirements on its
    grantee:
    grantee: ",-....,b,b. restrictions in transfers of funds
                                                       fUMS among direct cost categories for
    grants in which
               v.tIiCh the Federal share exceeds $100,000." Section 322 confirms, "If   -If required
    in furtherance of the project, the grantee is authorized to transfer funds from one budget
    categOry to another for allowable expend'tures.
                                            expend·lures....

The University of Wisconsin - Madison
                                 Mad ison applied those sections of tha the two-ninths
                                                                             two-ninthS rule cited
above and transferred funds into the salary budget categories for the salaries of the two
above
Investigators in question
investigators    QueStion in FY 07,
                                 07. Further, the two investigatOl'S
                                                         investigatOl"$ certified that
                                                                                  thaI tha
                                                                                       the amounts
charged
chargad were consistent with thethe level of effort
                                              eftOr1 expended. We believe our salary payments
were allowable
       allowabte and allocable according to the NSF policies in effect at the time,time . While NSF
policies changed
          changed wrth
                   w~h the application
                            application of the October 2008 GPG, Wiscollsill
                                                                       Wisconsin acted ullder
                                                                                           under the
applicable NSF
            NSF pol icies for NSF projects ill
                 policies                    in FY
                                                 FY 07,
                                                     07.




                                               17
                                             Appendix B – Wisconsin Response to the Audit Report




If yotJ have lin)'
   you have        questioos llbout
              any questions         our response, we
                             about our               woukl be
                                                  _ would     I'Iappy 10
                                                           be happy   10 provide
                                                                         provIOe cll'lrification.
                                                                                 clarification.
TMnIt yotJ
Thank    you for your consideration.
                 yout consideration.




                                                       Associate Vice Chancellor for Research
                                                       Administration lind
                                                                      and Director, Research and
                                                       Sponsored Programs
                                                                   Program.




                                                 18
